Application No. 19A783

In the Supreme Court of the United States
MELVIN HODGES, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Application for Extension of Time to File a Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit

PETITIONER’S APPLICATION FOR SECOND EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI

Michael Filipovic
Counsel of Record
Ann K. Wagner
Federal Public Defender’s Office
1601 Fifth Avenue, Suite 700
Seattle, Washington 98101
(206) 553-1100
Michael_Filipovic@fd.org
Counsel for Petitioner

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE
FOR THE NINTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22, and 30.2, Petitioner Melvin
Hodges respectfully requests a second and final 30-day extension of time, up to and
including Monday, March 16, 2020, 1 to file a petition for a writ of certiorari to the
United States Court of Appeals for the Ninth Circuit to review that court’s
unpublished memorandum decision in Hodges v. United States, COA No. 17-35408
(attached as Exhibit A). On October 17, 2019, the court denied a petition for panel
rehearing with suggestion for rehearing en banc (attached as Exhibit B). The
jurisdiction of this Court will be invoked under 28 U.S.C. § 1254(a), and the time to
file a petition for writ of certiorari will expire without an extension on February 14,
2020. This application is timely because it has been filed at least ten days prior to
the date on which the time for filing the petition is to expire. S. Ct. R. 13.5.
1.

The undersigned is the Federal Public Defender for the Western District

of Washington.
2.

This case presents an important issue of statutory interpretation that has

produced intractable conflict among the lower courts: When does 28 U.S.C.
§ 2255(f)(3) require that a § 2255 motion based on Johnson v. United States, 135 S.

1

Thirty days from the current deadline of February 14, 2020, is March 15, 2020,
which is a Sunday. Pursuant to Supreme Court Rule 30, the 30-day period would
extend to the next day, March 16, 2020.
2

Ct. 2551 (2015), be filed when it challenges a sentence imposed under the preBooker mandatory guidelines.
3.

The petition will seek review of the Ninth Circuit’s decision, Hodges v.

United States, 778 Fed. App’x 413 (9th Cir. 2019), which further entrenches a circuit
split with, at least, the First Circuit and the Seventh Circuit.
4.

Mr. Hodges is in the process of retaining Jenner & Block, LLP and the

University of Chicago Jenner & Block Supreme Court & Appellate Clinic to
represent him in this case. The undersigned respectfully requests a second and final
30-day extension so that new counsel can finalize their representation of Mr.
Hodges, familiarize themselves with the case, and prepare a petition for certiorari.
5.

Mr. Hodges filed a habeas petition in 2016, seeking to vacate his

sentence because it was imposed under the residual clause of the then-mandatory
career offender Sentencing Guidelines. See Hodges v. United States, No. C161521JLR, 2017 WL 1652967, at *1 (W.D. Wash. May 2, 2017), aff’d, 778 F. App’x
413 (9th Cir. 2019). Those Guidelines were based on the language of the residual
clause of the Armed Career Criminal Act, which the Court held in Johnson was
unconstitutionally vague. See Hodges, 778 F. App’x at 414.
6.

The Ninth Circuit has held that “Johnson did not recognize a new right

applicable to the mandatory Sentencing Guidelines on collateral review.” United
States v. Blackstone, 903 F.3d 1020, 1028 (9th Cir. 2018). It therefore held that
3

Johnson-based habeas petitions challenging the application of the mandatory
Guidelines are untimely, because they were not filed within a year of the defendants’
convictions becoming final. Id.
7.

Based on this previously articulated reasoning, and citing the circuit’s

prior ruling in Blackstone, the Ninth Circuit summarily denied Mr. Hodges’s habeas
petition as untimely. Hodges, 778 F. App’x at 414.
8.

Although the memorandum below was unpublished, it was the first

opinion in which Ninth Circuit Judge Marsha S. Berzon, in a concurrence,
announced her disagreement with Blackstone, 903 F.3d 1020, the published Ninth
Circuit decision on this issue.
9.

As Judge Berzon noted in her concurrence, the Ninth Circuit’s prior

holding—which the decision under review followed as ironclad precedent—
conflicts with the decisions of at least two other circuits. See Hodges, 778 F. App’x
at 414 (Berzon, J., concurring) (“There is a circuit split over the applicability of 28
U.S.C. § 2255(f)(3) to section 2255 motions based on Johnson . . . , where the
challenged sentence was mandatorily enhanced by a residual clause with language
parallel to the clause found unconstitutionally vague in Johnson, but contained in a
different statute from the one Johnson considered. The Seventh Circuit, the First
Circuit, and district courts have persuasively reached a conclusion contrary to our
decision in Blackstone.”).
4

10.

The Seventh Circuit rejected the position the Ninth Circuit has since

adopted, finding that it “improperly reads a merits analysis into the limitations
period.” Cross v. United States, 892 F.3d 288, 293 (7th Cir. 2018). As a textual
matter, “Section 2255(f)(3) runs from ‘the date on which the right asserted was
initially recognized by the Supreme Court,’” and “does not say that the movant must
ultimately prove that the right applies to his situation.” Id. at 293–94 (quoting 28
U.S.C. § 2255(f)(3)) (emphasis added). As the Seventh Circuit put it, the Ninth
Circuit’s reading “would require that we take the disfavored step of reading
‘asserted’ out of the statute.” Id. at 294.
11.

Similarly, the First Circuit has rejected the idea “that first § 2255

motions that sought to apply Johnson . . . to the pre-Booker guidelines were outside
the statute of limitations for such motions.” Moore v. United States, 871 F.3d 72, 82
(1st Cir. 2017). The First Circuit found that “Beckles did not confine Johnson . . . to
its facts,” and that it can “fairly and easily be read” as only rejecting challenges to
the post-Booker advisory Guidelines. Id. at 83. “On this framing,” the First Circuit
held, the right that habeas petitioners challenging the mandatory Guidelines sought
to assert “is exactly the right recognized by Johnson.” Id.
12.

Several other circuits have weighed in on, and deepened, this circuit

split. See United States v. Green, 898 F.3d 315, 321 (3d Cir. 2018) (noting that,
“[b]efore Beckles was decided, we, along with the majority of the Courts of Appeals
5

to consider the question, concluded that the holding in Johnson dictated that the
residual clause in the now-advisory Sentencing Guidelines was also void for
vagueness,” but reversing course after Beckles and finding habeas claim untimely);
United States v. Brown, 868 F.3d 297, 303 (4th Cir. 2017) (finding claim untimely);
Raybon v. United States, 867 F.3d 625, 630 (6th Cir. 2017) (same); Russo v. United
States, 902 F.3d 880, 883 (8th Cir. 2018) (same); United States v. Greer, 881 F.3d
1241, 1248 (10th Cir. 2018) (same).
13.

Most of the circuits have thus weighed in on the issue this petition

would present, and the circuit split has hardened in the past three years. Moreover,
like Judge Berzon, “several Court of Appeals judges have noted that they believe
their Circuit has reached the wrong conclusion” in denying habeas petitions
challenging the mandatory Guidelines. United States v. Carter, No. 04-CR-0155
(ESH), 2019 WL 5580091, at *13 (D.D.C. Oct. 29, 2019) (quoting cases).
Accordingly, in light of the time his new counsel will need to prepare the
petition, Petitioner Hodges respectfully requests that an order be entered extending
the time to file a petition for a writ of certiorari for 30 days from February 14, 2020,
up to and including March 16, 2020.

6

Dated: February 3, 2020

Respectfully submitted,

________________________________
Michael Filipovic
Counsel of Record
Ann K. Wagner
Federal Public Defender
1601 Fifth Avenue, Suite 700
Seattle, WA 98101
(206) 553-1100
Counsel for Petitioner

7

